No.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER 2020 TERM

 

TYKEI GARNER
Petitioner

Vv.

UNITED STATES OF AMERICA
Respondent

 

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

Petitioner, Tykei Garner pursuant to Title 18, United States Code, Section
3006A(d)(6) and Rule 39 of the United States Supreme Court, asks leave to file the
attached Petition for Writ of Certiorari without prepayment of costs, and to proceed
in forma pauperis. Pursuant to an appointment under the Criminal Justice Act of
1964, as amended, defense counsel was appointed to represent the Petitioner in the
United States District court for the Middle District of Pennsylvania and the United
States Court of Appeals for the Third Circuit.

Respectfully submitted,

THOMAS, THOMAS & HAFER, LLP
/s/ John F. Yaninek

John F. Yaninek, Esquire

PA Attorney ID#55741

PO Box 999

Harrisburg, PA 17108

(717) 441-3952 - Phone

(717) 237-7105 - Fax
Attorney for Petitioner, Tykei Garner

Date: 10/20/20
